U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Antwan R. Cray v. Warden, FCC Coleman-Medium,
S.Ct. No. 20-5132

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 16,
2020, and placed on the docket on July 21, 2020. The government’s response is due on August
20, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 21, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5132
CRAY, ANTWAN R.
WARDEN, FCC COLEMAN - MEDIUM

ANTWAN R. CRAY
53343-018
FFC - COLEMAN - MEDIUM
UNIT A-3
COLEMAN, FL 33521-1032

